No. 20-1566
DAVID CASSIRER, ET AL.,
Petitioner,
v.
THYSSEN-BORNEMISZA COLLECTION FOUNDATION,
AN AGENCY OR INSTRUMENT OF THE KINGDOM OF SPAIN,

Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Charles J. Cooper a member of the Supreme Court Bar, certify that the BRIEF OF AMICI CURIAE 14
PROFESSORS, in the above entitled case complies with the typeface requirements of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook
12 point for the text and 10 point for the footnotes, and that this brief complies
with the word limitation of Supreme Court Rule 33.1(g)(x) (2019), containing
3,820 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d).

Date: May 24, 2021

/s/Charles J. Cooper
Charles J. Cooper

